IN THE
SUPREME COURT OF THE UNITED STATES

October Term, 2020

LAYW THOMAS, Petitioner
v.

COMMONWEALTH OF KENTUCKY, Respondent

 

PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF KENTUCKY

MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS

 

The Petitioner, Layw Thomas, asks leave to file the attached Petition for a Writ of Certiorari to the
Supreme Court of Kentucky without prepayment of costs and to proceed in forma pauperis
pursuant to Rule 39. The petitioner was permitted to proceed as an indigent on appeal by the trial
court. The order for affidavit of indigency appointing the Department of Public Advocacy to

represent Mr. Thomas pursuant to KRS Chapter 31 is attached to this motion.

Respectfully Submitted,
Micctt Mb S. fniot
Kathleen Kallaher Schmidt*

Department of Public Advocacy
5 Mill Creek Park, Suite 100
Frankfort, Kentucky 40601
(502) 564-8006 (office)

(S02) 695-6769 (fax)
kathleen.schmidt@ky.gov

*Counsel of Record
COMMONWEALTH OF KENTUCKY
CHRISTIAN CIRCUIT COURT
CASE NOs. 06-CR-110 & 06-CR- 142

LAYW THOMAS MOVANT

Vv. RDER TO PROCEED IN FORMA PAUPERIS AND APPOINTIN

THE DEPARTMENT OF PUBLIC ADVOCACY ON APPEAL

COMMONWEALTH OF KENTUCKY RESPONDENT

The Defendant has moved the court for an order to prosecute the appeal of his RCr 11.42
in forma pauperis and it appears that the defendant is a pauper within the meaning of KRS 453.190
and KRS 31.110(2)(b).

IT IS HEREBY ORDERED AND ADJUDGED that the defendant may prosecute this

appeal without payment of costs, and the — of Public Advocacy is appointed to represent
the defendant on appeal. gy
Under my hand this D ay of » 2018.
HON. JOHN L. ATKINS, CHIEF JUDGE
CHRISTIAN CIRCUIT COURT

 

168

 

Envelope #1158218:000007 of 000007

As Submitted By: DOREN, KELSEY

Envelope #1158248 , 000007 of 990007
